No. 20-307

 

 

IN THE

Supreme Court of the Anited States

SHAHROKH MIRESKANDARI,

Petitioner,
v.

BARRINGTON MAYNE, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

MOTION FOR LEAVE TO FILE BRIEF
AMICUS CURIAE AND BRIEF AMICUS CURIAE
OF THE SOCIETY OF BLACK LAWYERS
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the brief contains
5,350 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

The motion contained within this publication has 624 words.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 9, 2020.

 

Colin Casey Hoga
Wilson-Epes Printing Co., Inc.
